GR-40-98-029
U.S. DEPARTMENT OF JUSTICE
 
Audit Report
 
Office of Community Oriented Policing Services
Grants to the Charlotte-Mecklenburg, North Carolina Police Department
Grant Nos.
95-CL-WX-0008, 97-UL-WX-0027, and 97-CL-WX-0057
 
GR-40-98-029
September 1998
 
 
EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an
audit of grants awarded by the U.S. Department of Justice, Office of Community Oriented
Policing Services (COPS), to the Charlotte-Mecklenburg, North Carolina, Police Department
(CMPD). The CMPD received a $3,000,000 grant to hire or rehire 40 sworn officers under the
Universal Hiring Program (UHP). The CMPD also received a $4,242,333 grant to redeploy
205.2 officer full-time equivalents (FTE) and an additional $4,120,920 grant to redeploy
176.5 officer FTEs under the Making Officer Redeployment Effective (MORE) program.

In brief, the CMPD violated some of the grant conditions. Specifically, the CMPD:



Claimed salaries and fringe benefits for ten civilian employees transferred within the
      department to allow redeployment of officers. COPS guidelines state that civilians should
      be hired from outside the department unless prior authorization is obtained from COPS; the
      CMPD did not obtain such authorization. We question $310,925 in associated salaries and
      fringe benefits as unallowable.




Did not implement a one-for-one redeployment of officers for civilian employees
      transferred in to replace them, as required by the grant. Accordingly, we question
      $332,659 in associated salaries and fringe benefits as unallowable.




Could not provide time sheets to support $36,477 in salaries and fringe benefits under
      the UHP grant.




Could not provide time sheets to support $116,145 in salaries and fringe benefits under
      the first MORE grant.


These items are discussed in the Findings and Recommendations section of the report.
Our scope and methodology appear in Appendix II.
#####